                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: A05040021
                                                                                 11          Page 1 of 1




          We received an allegation of apparent plagiarism in the subject's1 submitted NSF proposal2,and
          in research publications that acknowledged NSF support.3 The subject responded by assigning
          blame for the plagiarism to students who had assisted in the preparation of the proposal and the
          publications. The University investigation found no evidence to support the involvement of
          students, and discovered additional plagiarism in proposals that the subject alone had authored.
          The University made a finding of research misconduct, and moved to terminate the employment
          of the subject. The subject resigned his faculty position before the University action became
          h a l . We completed a report of investigation, and recommended that NSF send a letter of
          reprimand to the subject informing him that NSF has made a finding of research misconduct; and
          debar the subject from receiving Federal funds for a period of two years commencing on the date
          of NSF's finding of research misconduct; and prohibit the subject from serving as a reviewer of
          NSF proposals for the same period of two years; and require, for a period of two years after the
          debarment period, that the subject submit assurances to NSF OIG by a responsible -officialof his
          employer that any proposals or reports submitted by the subject to NSF do not contain
          plagiarized material; and complete an ethics training course, and certify its completion to NSF
          OIG. NSF agreed with the recommendations, and made a finding of research misconduct,
          debarred the subject for two years, required two subsequent years of certifications and assurances
          that proposals submitted do not contain plagiarized, falsified, or fabricated material, prohibited
          the subject from serving as an NSF reviewer for two years, and required the subject to attend an
          ethics training course on plagiarism.

          Accordingly, the case is closed.




 NSF OIG Form 2 (11102)
       National Science Foundation
         Office of Inspector General




                        Confidential
                    lnvestlgatlon Keport
                  Case Number A05040021

                         30 March 2007


CONFIDENTIAL

NSF OIG FORM228 (1103)
                                      Executive Summary

                                             Inquiry

OIG's inquiry established that:

       copied text appeared in the subject's NSF proposal; and

       copied text appeared in two of the subject's publications that acknowledge NSF support;
       and

       the subject claimed that his post-doctoral. associate and graduate students provided the
       copied text.


                                           Investigation

The Investigation Committee of the University:

       concluded that the subject plagiarized text into two NSF proposals and two publications
       that acknowledge NSF support; and

       established that the subject plagiarized text into three internal proposals submitted to the
       University; and

       refuted the subject's claim that the plagiarized text was provided to him by his post-
       doctoral associate and graduate students.

                                           Conclusions

        The subject plagiarized a total of 137 lines of text from uncited sources into two
proposals submitted to the National Science Foundation, and a total of 148 lines of text into two
research publications that cited NSF support. The Office of Inspector General (OIG) concludes
that the subject's plagiarism constitutes research misconduct, and recommends NSF:

       send a letter of reprimand to the subject informing him that NSF has made a finding of
       research misconduct; and
       debar the subject from receiving Federal funds for a period of 2 years commencing on the
       date of NSF's finding of research misconduct; and
       prohibit the subject from serving as a reviewer of NSF proposals for the same period of
       two years; and
       require, for a period of 2 years after the debarment period, that the subject submit
       assurances to NSF OIG by a responsible official of his employer that any proposals or
       reports submitted by the subject to NSF do not contain plagiarized material; and
       complete an ethics training course, and certify its completion to NSF OIG.
                                           OIG Inquiry

                                                                        !?
        We received an allegation that the subject's' FY2005 NSF pro osa12 contained
approximately 69 lines of text copied from uncited source documents. In assessing the
allegation, we also discovered approximately 148 lines of apparent copied text in two of the
subject's publications, each of which acknowledged NSF support.' We wrote to the subject to
obtain his perspective of the issue (Tab I). The subject admits that the text is copied from the
sources we identified (Tab 2). The subject stated that his post-doctoral research associate and his
graduate students were responsible for the apparent plagiarism, and claimed that the copied text
appeared in their research progress reports. The subject did not provide documents to support his
explanation. We therefore concluded that there was sufficient substance to proceed to
investigation. Consistent with our practice, we referred the investigation to the subject's
universityS (Tab 3).

                             Universiw's Inquiry and Investigation

       The University convened an Investigation Committee (IC) to review the matter. At the
conclusion of its investigation, we received a copy of the IC report,6 and a letter that describes
adjudicative action proposed by the University (Tab 4). Based on our review of the report, we
conclude that the IC followed reasonable procedures in its investigation, and that its report is
accurate and complete. The IC interviewed the subject, the subject's post-doctoral research
associate, and his graduate students, and assessed the proposals, source documents, and
laboratory documents related to the case.

         The IC examined the subject's FY 2005 NSF proposal. The subject had explained to us
that some apparently copied text originated in materials given to him by others. These
individuals denied to the IC that they had done so, and the IC found no documentary evidence to
support the subject's explanation. For some sections of the proposal, the subject does not
implicate his colleagues, but instead suggested to the IC that the simihrities in the text was
coincidenta~.~   The IC concluded otherwise, and determined that the subject pia'giarized the text
(a total of 69 lines) into the FY 2005 NSF proposal.

       In addition, the IC examined the subject's FY 2002 NSF proposals to determine if there
was a pattern of behavior, and in response to the subject's insistence that the FY 2005 proposal




for inspection.
uniquely contained duplicated material. The IC determined that text was copied verbatim into
the FY 2002 proposal from three uncited publications (Tab 5). The IC report stated that the
subject was the sole author of the proposal. The IC concluded that the subject plagiarized the
text (a total of 68 lines) into the FY 2002 NSF proposal.9

          The IC also examined the publications of the subject that acknowledged NSF support
which appear to contain duplicated text, and which are described in our initial inquiry letter to
the subject. The IC concluded that the subject plagiarized a total of approximately 148 lines of
text into these publications.'0

         The IC examined internal University proposals submitted by the subject. The
examination revealed additional instances of duplicated text. The IC separately concluded that
the subject plagiarized text into three internal proposals.1'

        With respect to NSF interests, the IC concluded, by a preponderance of the evidence, that
the subject copied text into two publications that acknowledged NSF support, and into two
proposals submitted to NSF. The IC concluded that these actions were a significant departure
from accepted practices, and that these actions were committed recklessly. The IC concluded
that these actions constituted professional misconduct, according to University policy. The
University proposed termination of the subject's employment, based on the professional
                                                                    T:
misconduct found by the IC, the additional plagiarism ap arent in the internal proposals of the
subject, and other conduct unrelated to this investigation.

                                              OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.I3

                                                     The Acts

             The subject plagiarized a total of 137 lines of text into two NSF proposals, and a total of
148 lines of text into two research publications that acknowledged NSF support. The IC report
s t a t e d l " ~ a c h researcherlscientist is expected to contribute to science using hislher original


     Investigation committee report, page 8 (Tab 4).
lo    Investigation committee report, page 5 (Tab 4),
I'
      The IC examined the subject's internal proposals submitted in 2001,2002, and 2005 to a
Award Program (see appendix to the IC report). The IC identified plagiarism in all three
subject's internal proposals and the source documents for the plagiar~smidentified by the IC are included in an
appendix to the IC report, available for inspection. We did not verify the completeness of the IC's assessment of the
subject's internal proposals.
l 2 The University considered the subject's plagiarism in the three internal proposals, the subject's offer to
voluntarily exclude himself from submitting proposals to NSF, and other actions by the subject. These issues are
laid out in the appendix to the IC report, available for inspection.
 l 3 45 C.F.R. §689.2(c).
l 4 Investigation Committee report, page 6 (Tab 4).
ideas, hypotheses, results, and conclusions in hisher own words (unless properly referenced to
indicate the sources). The plagiarism found in [the subject's] NSF grant proposal and two
publications is far too extensive to be considered acceptable in the scientific community." The
IC concluded that the subject's actions explicitly constitute a departure from the accepted
standards of the relevant research community. We concur.

                                                         Intent   .


          A finding of research misconduct requires that the actions by the subject be, at a
minimum, reckless. The IC report concluded that the extent of copied text by the subject in a
number of different proposals and publications, prepared over a period of years, provided
sufficient evidence that the actions of the subject, by a preponderance of the evidence, were
reckless. l5

        We conclude, however, that the subject's actions were knowing. The subject implicated
his colleagues for the copied text, but the IC concluded that his colleagues were not involved,
and that the subject was solely responsible. The subject claimed that some of the copied text was
merely "~oincidental,"'~  when, in fact, the duplication was verbatim. The subject also claimed
that the copied text was a one-time occurrence.17 In fact, his practice of copying text extended
over a period of years, as evidenced in the subject's FY 2002 NSF proposal, and in internal
proposals submitted in the period of 2001 through 2005. Such actions are knowing and not
merely reckless.

                                                  Standard o f Proof

        The IC concluded, by a preponderance of the evidence, that 1) the subject copied text into
his submitted proposal, and that 2) his actions represent a significant departure from accepted
practices.18 We conclude, by a preponderance of the evidence, that in offering multiple lines of
text written by others as his own, in circumventing the effort required to prepare his own
proposals and publications, in providing those duplicated words as emblematic of his own
understanding of the research field, and in exhibiting these practices in two different NSF
proposals submitted years apart, the subject seriously departed from standards of the research
community. We conclude that the subject knowingly committed plagiarism, and therefore the
subject committed research misconduct.

                                        OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) How serious the misconduct was; (2) The degree to which the misconduct was




IS   Investigation   committee report, page 7 (Tab 4).
l6   Investigation   committee report, page 5 (Tab 4).
"    Investigation   committee report, page 7 (Tab 4).
''   Investigation   committee.report, page 6 (Tab 4).
knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a pattern; (4)
Whether it had a significant impact on the research record, research subjects, other researchers,
institutions or the public welfare; and (5) Other relevant circumstance^.^^

                                                    Seriousness

        Our original inquiry identified 69 lines of plagiarized text in the subject's FY 2005 NSF
proposal, all from uncited sources. The IC established that an additional 68 lines of plagiarized
text appeared in the subject's FY 2002 NSF proposal. The IC also concluded that the subject
plagiarized in two research publications.20 As a result, the reputations of the subject's coauthors
have been tarnished. The subject's acts of plagiarism are a serious breach of the standards of
scholarship that underlie scientific research.

                                                Degree o f Intent

        The extent of plagiarism by the subject dispels his explanation of recklessness or
carelessness. Instead, the subject's misappropriation of the words of others and their
presentation, without including citation, into his own work is characteristic of his knowing intent
to plagiarize into proposals submitted over a period of years, and in two of his research
publications from the same period.

                                                      Pattern

        In addition to proposals submitted to NSF, the IC examined proposals submitted by the
subject for internal hnding proorams within the University, and found verbatim plagiarism in all
three of the internal proposals.'' The IC considered this finding as evidence for a pattern of
behavior by the subject. We concur with the ICYsassessment of a pattern of plagiarism by the
subject, according to the chronology summarized here:

Submission date                              Description                          Lines of plagiarized text

November 200 1                      University internal proposal                  14
July 2002                           FY 2002 NSF proposal                          68 lines
October 2002                                                                      22 lines
April 2003                                                                        138 lines
November 2004                                                                     10
January 2005                                                                      69 lines
April 2005                          University internal proposal                  15 lines




highlighted and cross-referenced.
22 The extent of plagiarized text for each of the subject's internal proposals listed was determined by the IC.
23 The duplicated text appears in the supplementary material for the publication.
                                             Impact on the research record

         Neither of the two NSF proposals containing plagiarized text was funded by IVSF. The
research record now includes the subject's two research publications with plagiarized text,
followed by the publication corrections. The impact of the plagiarism in these publications
includes harm to the reputations of the subject, his original co-authors, their institution, and those
that relied on the publication.24 The 1C report noted that the corrections to the publications were
submitted without the apparent knowledge of the coauthors, and notes that their associations with
plagiarized materials may be harmful to their careers. The IC report concluded that the
plagiarism in the NSF proposals seriously undermines the reputation and research integrity of the
subject.25 We concur.

                                              Other relevant factors

        In his responses to us, the subject stated that his graduate students and post-doctoral
research associate were responsible for the plagiarism found in his NSF proposal, and in his
research publications acknowledging NSF support. These individuals denied their involvement,
and the IC found no support for the subject's claims. The IC concluded, and we concur, that the
subject's attempts to implicate his students and associates were dishonest. In his responses to us,
the subject pledged to undertake corrections of the plagiarism in his research publications
acknowledging NSF support, and did so.26

                                       Subiect's response to this report

         We sent a draft copy of this report to the subject. We received no comments.

                                                'Recommendation

         NSF OIG recommends that NSF:

         send a letter of reprimand to the subject informing him that NSF has made a finding of
         research misconduct; and
         debar the subject from receiving Federal funds for a period of 2 years commencing on the
         date of 1VSF's finding of research misconduct; and
         prohibit the subject from serving as a reviewer of NSF proposals for the same period of
         two years; and
         require that the subject submit assurances to NSF OIG by a responsible official of his
         employer that any proposals or reports submitted by the subject to NSF do not contain
         plagiarized, falsified, or fabricated material for a period of 2 years after the end of the
         debarment period; and
         complete an ethics training course, and certify its completion to NSF OIG.

24
    The subject's 2003 publication has been cited a total of six times (2 independent researcher citations, 3 self-
citations, and 1 correction). The subject's 2005 publication has been cited a total of eight times (5 independent
researcher citations, 2 self citations, and 1 correction).
25
    Investigation committee report, page 9.
26 The corrections to the publications are listed in Footnote 20.
                               RATIONALSCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230

                                         AUG 3.~7
                                                2007


   OFFICE OF THE
  DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Dr. Bhanu P. Chauhan




       Re: hrotice of Proposed Debarment and Notice of Researclz Miscorzduct Detertnirzation

Dear Dr. Cl~auhan:

                                                     1-1
                                                    itled,
                                                     ich you were identified as the Principal




Inspector General ("OIG"), each of these documents contained plagiarized text.

In light of your misconduct, this letter serves as formal notice that the National Science
Foundation ("NSF") is proposing to debar you from directly or indirectly obtaining the benefits
of Federal grants for a period of two years. During your period of debarment, you will be
precluded from receiving Federal financial and non-financial assistance and benefits under non-
procurement Federal programs and activities. In addition, you will b e prohibited from receiving
any Federal contracts or approved subcontracts under the Federal Acquisition Regulations
("FAR"). Lastly, during your debarment period, you will be barred from having supervisoiy
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Govenlrnent.
                                                                                            Page 2
In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
advisor, or consultant until September 1,2009. Furthermore, for two years after the period of
debarment expires, I am requiring you to certify that any proposals or reports that you submit to
NSF do not contain plagiarized, falsified, or fabricated material. For this same period of time,
you must submit assurances by a responsible orficial of your employer that any such proposals or
reports do not contain plagiarized, falsified, or fabricated material. Lastly, by September 1,2008,
you must complete an ethics training course on plagiarism, and certify in writing to the OIG that
you have done so.

Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performins research funded by NSF . . ." 45 CFR fj 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR fj 689.1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; .and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR fj 689.2(c).

Each of the publications identified previously contains verbatim and paraphrased text from other
source documents. By submitting proposals to NSF or by publishing papers that copy the ideas
or words of another without adequate attribution, as described in the OIG investigative report,
you misrepresented someone else's work as your own. In addition, you failed to properly
acknowledge or credit the authors of the source documents in your proposals and publications.
Your conduct unquestionably constitutes plagiarism. I therefore conclude that your actions meet
the applicable definition of "research misconduct" set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
plagiarism was committed knowingly and constituted a significant departure from accepted
practices of the relevant research community. I am, therefore, issuing a finding of research
misconduct against you.

NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be taken in
response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities fiom NSF; requiring
that an institution or individual obtain special prior approval of particular activities from IVSF;
                                                                                             Page 3
and requiring that an institutional representative certify as to the accuracy o f reports or
certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group 11
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR $689.3(a)(2). Group I11 actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR 9 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was knowing;the determination that
it was several instances of misconduct, as opposed to an isolated incident; and your attempts to
cover up your misconduct. I have also considered other relevant circumstances. 45 CFR
5 689.3(b).
I, therefore, take the following actions:

       For two years from the end of your debarment period, you are required to certify that
       proposals or reports you submit to NSF do not contain plagiarized, falsified, or fabricated
       material.

       For two years from the end of your debarment period, you are required to submit
       assurances by a responsjble official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated material.

       From the date of this letter through September 1,2009, you are prohibited froin serving as
       an NSF reviewer, advisor, or consultant.

       You are required to complete an ethics training course on plagiarism by September 1,
       2008. You must certify in writing to the OIG that such training has been completed.


Debarment

Regulato~yBasisjol- Debarment

Pursuant to 2 CFR 180.800, debarment inay be imposed for:

       (b)     Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)     A willful failure to perform in accordance with the t.erms of one or more
                       public agreements or transactions; or
                                                                                            Page 4
               (3)     A willful violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you knowingly plagiarized data in
two grant proposals submitted to the Foundation, and two papers published in scientific journals.
Thus, your actions support a cause for debarment under 2 CFR 180.800(b).

Length of Debarment

D e b a q e n t must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actlons, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period of
two years.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment

Appeal Procedures for Findirlg of Research Miscorlduct

Under NSF's regulations, you ha1.e 30 days after receipt of this letter to subinit an appeal of this
finding, in writing, to the Director of the Foundation 45 CFR 689.1 0(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, Arlington,
Virginia 22230. If we do not receive your appeal within the 30-day period, the decision on the
finding of research misconduct will become final. For your information, we are attaching a copy
of the applicable regulations.


Procedures Governing Proposed Debarment

The pro\~isionsof 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposit~onto
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.

Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, w e are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.
                                                                                   Page 5
Should you have any questions about the foregoing, please contact    , Assistant General
Counsel, at (703) 292-


                                                   Sincerely,



                                                   Kathie Olsen
                                                   Deputy Director

Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
                                 NATIONAL SCIENCE FOUNDATION           .
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230



                                          NOV 2 0 20Q7

     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Dr. Bhanu Chauhan




       Re: Debarnlerit

Dear Dr. Chauhan:

On August 27: 2007, the National Science Foundation ("NSF") sent you a Notice of Proposed
Debamlent in which NSF proposed to debar you from direclly or indirectly obtaining the benefits
of Federal grants for a period of two years. The Notice sets forth in detail the circumstailces
giving rise to NSF's decision to propose your debarment. In that Notice, NSF provided you with
thirty days to respond to the proposed debarment.

Over thirty days have elapsed and N S F has not received a response. Accordingly, you are
debarred until November 1, 2009. Debarment precludes you from receiving Federal financial
and non-financial assistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a determination to grailt an exception in
accordance with 2 CFR 5 180.135. Non-procurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidles,
insurance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR) at 48 CFR Subpart.9.4 for the period of this
debarment. 2 C F R $ 620.115. During the debarment period, you may not have supervisory
respo~lsibility,primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Govenmlent.
